No.

 

 

IN THE
Supreme Court of the Anited States

DR. GAZELLE CRAIG,
Petitioner,
Vic

UNITED STATES,
Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit

CERTIFICATE OF SERVICE

I, Jack B. Zimmermann, counsel of record for applicant and a member of the
Bar of this Court, certify that, on February 19, 2021, an electronic copy of the Petition
for a Writ of Certiorari and Appendix in the above-captioned case were sent to the
following counsel for the Respondent:

1. Office of the Solicitor General at SupremeCtBriefs@USDOJ.gov

2. Scott A.C. Meisler, Criminal Division, Appellate Section, U.S. Department of
Justice at Scott.Meisler@usdoj.gov. Mr. Meisler waived service of paper copies of
these filings and agreed to electronic service.

I further certify that all parties required to be served have been served.

ie B. 7
ounsel

seal Zimmermann Lavine &
Zimmermann, P.C.
770 South Post Oak Lane, #620
Houston, Texas 77056
(713) 552-0300
Jack.Zimmermann@ZLZSlaw.com

   

 
